U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Dzhokhar A. Tsarnaev, No. 20-443
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on March 22, 2021.
Petitioner’s brief on the merits is currently due May 6, 2021.
In order to accommodate scheduling difficulties and the press of other cases, petitioner
respectfully requests, under Rule 30.4 of the Rules of this Court, an extension to and including
June 14, 2021, within which to file the opening brief and joint appendix. Because of similar
concerns, counsel for respondent consents to that request and seeks an extension of time for the
filing of respondent’s briefs to and including August 20, 2021. Petitioner consents to that request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0443
USA
DZHOKHAR A. TSARNAEV

CLIFFORD GARDNER
LAW OFFICES OF CLIFF GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
DANIEL HABIB
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
DANIEL_HABIB@FD.ORG
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM

GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER , CO 80302
303-444-1885
DAVID PATTON
DEIRDRE D. VON DORNUM
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN , NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

